<html>
<title> - [H.A.S.C. No. 114-142] Department of Defense Laboratories: Innovation Through Science and Engineering In Support of Military Operations</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 114-142]

                         DEPARTMENT OF DEFENSE

                    LABORATORIES: INNOVATION THROUGH

                       SCIENCE AND ENGINEERING IN

                     SUPPORT OF MILITARY OPERATIONS

                               __________

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 28, 2016

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                              ____________
                              
                              
                   U.S. GOVERNMENT PUBLISHING OFFICE
22-460                      WASHINGTON : 2017                   
_____________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1374637c53706660677b767f633d707c7e3d">[email&#160;protected]</a>  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                  JOE WILSON, South Carolina, Chairman

JOHN KLINE, Minnesota                JAMES R. LANGEVIN, Rhode Island
BILL SHUSTER, Pennsylvania           JIM COOPER, Tennessee
DUNCAN HUNTER, California            JOHN GARAMENDI, California
RICHARD B. NUGENT, Florida           MARC A. VEASEY, Texas
RYAN K. ZINKE, Montana               DONALD NORCROSS, New Jersey
TRENT FRANKS, Arizona, Vice Chair    BRAD ASHFORD, Nebraska
DOUG LAMBORN, Colorado               PETE AGUILAR, California
MO BROOKS, Alabama                   (Vacancy)
BRADLEY BYRNE, Alabama
ELISE M. STEFANIK, New York
                 Kevin Gates, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Franchi, Dr. Edward R., Acting Director of Research, Naval 
  Research Laboratory............................................     6
Holland, Dr. Jeffery P., Director, Engineer Research and 
  Development Center, U.S. Army Corps of Engineers, Waterways 
  Experiment Station.............................................     5
McMurry, Maj Gen Robert D., USAF, Commander, Air Force Research 
  Laboratory.....................................................     3
Perconti, Dr. Philip, Acting Director, United States Army 
  Research Laboratory............................................     8

                                APPENDIX

Prepared Statements:

    Franchi, Dr. Edward R........................................    83
    Holland, Dr. Jeffery P.......................................    65
    McMurry, Maj Gen Robert D....................................    27
    Perconti, Dr. Philip.........................................   101
    Wilson, Hon. Joe.............................................    25

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Langevin.................................................   115

Questions Submitted by Members Post Hearing:

    Mr. Norcross.................................................   127
    Mr. Wilson...................................................   121
  
  DEPARTMENT OF DEFENSE LABORATORIES: INNOVATION THROUGH SCIENCE AND 
             ENGINEERING IN SUPPORT OF MILITARY OPERATIONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                     Washington, DC, Wednesday, September 28, 2016.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Wilson. Ladies and gentlemen, welcome. I call this 
hearing of the Emerging Threats and Capabilities [ETC] 
Subcommittee of the House Armed Services Committee to order. I 
am pleased to welcome everyone here today for this hearing on 
the role of the Department of Defense [DOD] laboratories in 
supporting military operations.
    While the Secretary of Defense has been highlighting the 
need for increased partnerships with commercial providers in 
Silicon Valley, Boston, and elsewhere, I think it is important 
to remember that the Defense Department also maintains its own 
in-house sustained source of innovation. The Defense Laboratory 
Enterprise is a robust network of 67 laboratories and 
engineering centers that are dedicated to providing responsive 
scientific and engineering advice to support military needs.
    As we look to make the Department more flexible and 
adaptable to take on new innovations, it will be vitally 
important to ensure that the labs maintain the workforce and 
infrastructure needed to keep them relevant for the future 
warfighting environment. And looking at the challenge over the 
past 2 years, as chairman of this subcommittee, I am concerned 
that the Department is not doing enough to keep pace with the 
ever-evolving set of threats.
    In order to get a better perspective of these issues, I 
would like to welcome our distinguished panel of witnesses, 
which includes Major General Robert D. McMurry, U.S. Air Force, 
Commander, Air Force Research Laboratory [AFRL]; Dr. Jeffery 
Holland, Director, Engineering Research and Development Center 
[ERDC], U.S. Army Corps of Engineers, Waterways Experiment 
Station; Dr. Edward Franchi, the Acting Director of Research at 
the Naval Research Laboratory [NRL]; and Dr. Philip Perconti, 
the Acting Director of the United States Army Research 
Laboratory, ARL.
    I would like now to turn to my friend and ranking member, 
Mr. Jim Langevin from Rhode Island, for any comments he would 
like to make.
    I would like to remind our witnesses that your written 
statements will be submitted for the record so that you would 
summarize your comments to 5 minutes or less.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 25.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Well, thank you, Mr. Chairman.
    And thank you to our witnesses for being here today. I 
certainly look forward to hearing your testimony.
    And this hearing represents a unique opportunity to engage 
the individuals who run the Department of Defense, the DOD in-
house innovation centers, the major science and technology 
laboratory directors.
    So, this year in particular, we have heard a lot about the 
need for innovation in defense technology, and we often 
associate it with the defense innovation centers, or DIUx, 
initiative. Although I support outreach to nontraditional 
defense contractors, today is an important reminder that there 
are existing tools in DOD's toolbox that have a long history of 
producing game-changing technologies for our warfighters.
    This includes the Naval Undersea Warfare Center's [NUWC] 
Newport Division in my home State of Rhode Island. NUWC has 
produced technical advances throughout the lifecycle of many 
undersea platforms and systems, such as improved mine warfare 
sonar technology to ensure safe access and passage to vessels 
both on and below the waves.
    Our labs, our DOD labs, are institutions that can and 
should be further leveraged and enabled by Congress and the 
Department to make technical advances necessary to maintain our 
edge. These lab directors are not only intimately familiar with 
warfighting needs and future requirements, they also have 
longstanding partnerships with academia and industry in their 
surrounding communities. If we give them support, facilities, 
and additional enabling authorities, I believe that they can do 
even more.
    The ETC Subcommittee has long recognized the importance of 
our defense labs. Over the years, we have granted the 
Department many different authorities aimed at maintaining 
innovation in these institutions. These range from providing 
lab directors direct hiring authority, to special pay and 
incentives for workforce recruitment and retention, to using 
research, development, and technology money for military 
construction [MILCON] and facility repair.
    Furthermore, this year, in the National Defense 
Authorization Act [NDAA] for Fiscal Year 2017, we are 
considering a pilot program that will enable our lab directors 
to waive, with approval, internal regulations that hinder 
technological advancement.
    Yet there is more that we can do and more the Department 
can do to support our labs, including taking a serious look at 
how the services' varying and stringent conference attendance 
policies over the last few years have impacted the ability of 
the technical workforce to network, to learn, and to showcase.
    Today, I look forward to hearing each of your perspectives 
on innovation in our labs, specifically how past authorities 
granted have aided in keeping our labs innovative and what more 
can be done to keep our labs at the forefront of technological 
advancements.
    With that, again, Mr. Chairman, I want to thank you for 
holding this hearing, and I look forward to the testimony of 
our witnesses. And I yield back the balance of my time.
    Mr. Wilson. Thank you, Mr. Langevin.
    It is very appropriate that we have Congressman Mike Turner 
here today. He is a champion for the Air Force Research 
Laboratory at Dayton, Ohio, of course. And I am very grateful. 
Ten thousand persons, military and civilian, work there, and he 
is a champion. And that is why he is here.
    And I ask unanimous consent that non-subcommittee members 
be allowed to participate in today's hearing after all 
subcommittee members have had an opportunity to ask questions. 
Is there objection?
    Hearing none, without objection, the non-subcommittee 
members will be recognized at the appropriate time for 5 
minutes.
    General McMurry.

 STATEMENT OF MAJ GEN ROBERT D. McMURRY, USAF, COMMANDER, AIR 
                   FORCE RESEARCH LABORATORY

    General McMurry. Chairman Wilson, Ranking Member Langevin, 
members of the subcommittee and staff, Congressman Turner, as 
we move into fiscal year 2017, I am pleased to have the 
opportunity to provide testimony on the Air Force Research 
Laboratory and our efforts to lead the discovery, development, 
and integration of affordable warfighting technologies in the 
face of a dynamic, complex, and unpredictable future.
    I would like to take a moment to thank Congress and 
especially the members of this subcommittee for your service 
and your continued support of our laboratories, facilities, 
and, most importantly, our valuable scientists and engineers. 
As the laboratory's commander, I have seen how your commitment 
to science and technology [S&T] enables us to advance game-
changing capabilities, continually develop the S&T workforce, 
and strengthen and support industrial and academic base while 
leveraging them for the long-term security of our Nation.
    Today's AFRL has a proud legacy of 99 years of critical 
research efforts enabling the Air Force and Department of 
Defense to keep the fight unfair. Our technology breakthroughs 
have contributed to or supported every major operational Air 
Force platform. As we approach our 100-year anniversary, we now 
face a relentless pace of change that is increasing complexity 
and decreasing predictability in warfare.
    To address this complex environment, we follow the 
direction of the Secretary of Defense, Secretary of the Air 
Force, and Chief of Staff of the Air Force to bring a new level 
of agility and innovation into our capability development 
processes, workforce, and infrastructure.
    Just as the laboratory provided key innovations in support 
of both the first and second offset strategies, I am pleased to 
confirm that our game-changing technologies are already 
providing support and foundation for realizing a third offset 
strategy.
    Our efforts, many of which are described in my written 
statement, are aligned to the Long-Range Research and 
Development Planning Program initiatives. And as part of the 
Air Force acquisition process, we also incorporate and support 
Mr. Kendall's Better Buying Power 3.0 initiatives. Both of 
these broader initiatives provide tools strengthening our 
ability to innovate, achieve technical intelligence, and 
transition dominant military capabilities to the warfighter.
    The laboratory executes the bulk of Air Force S&T 
investment. The fiscal year 2017 President's budget request for 
S&T is approximately $2.5 billion, a 4.5 percent increase from 
fiscal year 2016.
    The budget request provides funding for the small advanced 
capability missile, the low-cost delivery vehicle, a high-speed 
strike weapon demonstration, component weapons technology, and 
for position, navigation, and timing technologies in direct 
support of the third offset.
    We are investing heavily in basic, applied, and advanced 
research while continuing to focus on game-changers like 
autonomous systems, unmanned systems, nanotechnology, 
hypersonics, and directed energy.
    At the request of the Chief of Staff of the Air Force, Air 
Force Materiel Command recently stood up a Strategic 
Development Planning and Experimentation Office. This office 
will reinvigorate development planning at the Air Force 
enterprise level. The new effort will shift the Air Force from 
platform-centric to strategy-based multi-domain solutions 
spanning air, space, and cyberspace. The office will support 
enterprise capability collaboration teams while providing 
modeling and simulation, wargaming, and data to facilitate 
development planning for the Air Force's highest priority 
mission areas.
    The laboratory brings data and requirements together with 
operators, technologists, and acquisition professionals to 
support Air Force experimentation efforts. We integrate into 
and support the Air Force's four pilot experimentation 
campaigns: Future Attack, Directed Energy, Data to Decisions, 
and Defeat Agile Intelligent Targets.
    Finally, I am extremely proud of our world-class scientists 
and engineers. Every day, I get to work with some of the 
brightest people in the world. They love this Nation and give 
selflessly to ensure its protection.
    We are working to exercise every authority available to us 
to compete with industry in attracting and hiring the best 
people. AFRL does have unique facilities and capabilities, and 
we use them to attract and inspire individuals to Air Force 
STEM [science, technology, engineering, and mathematics] 
careers through outreach and student research experiences.
    We endeavor to use all our authorities, including section 
219 and MILCON funding, to ensure our laboratory facilities 
continue to meet our Nation's defense goals.
    Mr. Chairman, members of the subcommittee, and staff, thank 
you again for the opportunity to testify today. I look forward 
to your questions.
    [The prepared statement of General McMurry can be found in 
the Appendix on page 27.]
    Mr. Wilson. Thank you very much, General McMurry.
    We now proceed to Dr. Holland.

    STATEMENT OF DR. JEFFERY P. HOLLAND, DIRECTOR, ENGINEER 
RESEARCH AND DEVELOPMENT CENTER, U.S. ARMY CORPS OF ENGINEERS, 
                  WATERWAYS EXPERIMENT STATION

    Dr. Holland. Chairman Wilson, Ranking Member Langevin, 
distinguished members of the subcommittee, Congressman Turner, 
thank you for the opportunity to discuss the U.S. Army Engineer 
Research and Development Center's role as a major Department of 
Defense science and technology organization. I greatly 
appreciate the support this committee has shown to S&T and the 
opportunities that your support has provided ERDC to carry out 
its mission.
    ERDC is the S&T arm of the U.S. Army Corps of Engineers. We 
conduct research and development in support of the warfighter, 
military installations, and the Corps' civil works mission. We 
also manage the Department of Defense's High Performance 
Computing Modernization Program, which provides supercomputing 
capabilities to DOD research, development, testing, and 
evaluation communities throughout the Department.
    In fiscal year 2016, we are executing a $1 billion program, 
$500 million of which is associated with reimbursable projects 
from every military service, the Office of the Secretary of 
Defense, and most Federal agencies.
    Today, I would like to address three elements that are 
critical to everything that we do within the ERDC: people, 
programs, and facilities.
    Innovation requires a talented workforce, and I am proud to 
represent ERDC's 2,100 engineers, scientists, and support 
personnel. ERDC's human capital goal for this fiscal year and 
the next 5 years is to hire more than 800 new scientists and 
engineers to our organization.
    We exceeded our annual recruiting goal this year, in large 
part due to the direct hiring authorities that have been made 
possible because ERDC is one of the 18 Science and Technology 
Reinvention Laboratories with laboratory demonstration projects 
authorized by the 1995 National Defense Authorization Act.
    Differing NDAAs have provided numerous enhancements to our 
hiring authorities, and NDAA 2015 provided direct hiring 
authorities for students. However, that authority, as yet, has 
not been delegated to the laboratories.
    I want to thank the Congress for its continued support to 
S&T laboratories by including language in the House and Senate 
versions of the 2017 NDAA that should greatly enhance our 
organizations.
    Because we have great people, we execute impactful 
programs. DOD service laboratories play a key role in national 
security, and ERDC has a long history of providing innovative 
solutions to keep our warfighters and civilians safe.
    Our force protection technologies are installed in theater 
to protect base camps from rocket and mortar attacks. As an 
example, though, of a counter-use, the State Department is 
using this technology to protect critical facilities and 
personnel worldwide. And many buildings in the National Capital 
Region, such as the one in which we sit, the Pentagon, and 
others, are safer because of ERDC protection technologies.
    Our airborne counter-IED [improvised explosive device] 
systems are currently providing CENTCOM [Central Command] with 
unique capabilities. ERDC's tunnel detection technologies have 
been applied in Iraq, along the Egypt-Gaza border, and along 
the U.S.-Mexico border in support of DOD and the Department of 
Homeland Security.
    We deliver environmentally sustainable solutions for 
energy, water, and waste in installations. And we are the 
Army's leader in energy R&D [research and development] in 
support of contingency basing. ERDC is also the world leader in 
water resources research and development, supporting the Corps' 
critical missions that provide economic security for our 
Nation.
    Finally, I welcome the opportunity to discuss our 
facilities in the 219 program. ERDC needs to modernize and 
recapitalize our facilities in order to ensure that we continue 
to do the world-class research that we do in support of the 
warfighter and our Nation. Our 219 authority allows us to fund 
facilities' improvements, and we have had great success in the 
use of this authority.
    This is particularly important given ERDC's difficulties in 
obtaining major MILCON funding. We benefit greatly from the 
committee's willingness to extend and enhance the 219 
authorities.
    We have not, as yet, been able to take advantage of the 
authority to provide the 2014 NDAA capabilities that have been 
written into law to accrue funds over multiple years for larger 
infrastructure activities. We are working on processes that 
would allow us to accrue these in an accountable, sustainable 
fashion.
    In conclusion, I invite you to visit ERDC at any time to 
see firsthand why we come to work every day. We make a 
difference. We save lives. We safeguard our military and 
civilians at home and abroad. And we protect and enhance the 
environment around us.
    Mr. Chairman, this concludes my statement. I look forward 
to the opportunity to answer questions from you and the other 
members. Thank you.
    [The prepared statement of Dr. Holland can be found in the 
Appendix on page 65.]
    Mr. Wilson. Dr. Holland, as a grateful dad of a member of 
the U.S. Army Corps of Engineers. Thank you for your service.
    Dr. Holland. Thank you, sir.
    Mr. Wilson. Dr. Franchi.

    STATEMENT OF DR. EDWARD R. FRANCHI, ACTING DIRECTOR OF 
              RESEARCH, NAVAL RESEARCH LABORATORY

    Dr. Franchi. Chairman Wilson, Ranking Member Langevin, and 
distinguished members of the subcommittee, I thank you for this 
opportunity to talk about the Naval Research Laboratory's work, 
how it performs its S&T mission, and some of the challenges it 
faces to the successful execution of that mission.
    NRL was borne from an idea conceived in 1915 by Thomas Alva 
Edison. The idea became a reality on July 2, 1923. At its most 
elemental, Edison's idea was that NRL, working with industry 
and academia, and knowledgeable of naval needs, would help 
build American seapower through long-term mission-related 
research and development. For more than 90 years, NRL has 
fulfilled that inventor's idea and vision.
    I would like to give you just a few examples over that time 
period. In the early years leading up and including World War 
II, NRL invented the first U.S. radar and we developed the 
first operational U.S. sonar. During the Cold War, NRL provided 
America's first intelligence satellite, launched 52 days after 
the downing of the U-2 aircraft over the Soviet Union. NRL also 
developed the original concept and two prototype satellites for 
what is now the Global Positioning System.
    As we go forward into regional conflicts and the current 
uncertain future, we are focusing on key technologies that 
encompass the third offset strategy. As one example, the 
laboratory is making important contributions to laser weapons 
and railguns. NRL scientists were the first to prepare and 
simulate the use of incoherently combined, high-power fiber 
lasers as the architecture for the Navy's new Laser Weapon 
System. NRL's railgun program began in 2003 and has since 
become a critical element in the efforts to development 
hypervelocity electric weapons.
    Rapid prototyping and experimentation is an important 
mechanism in transitioning science and technology to 
demonstrations of operational capabilities. One mechanism is 
the Navy's rapid prototyping process, where fleet needs are 
identified through the OPNAV [Office of the Chief of Naval 
Operations] and Secretariat organizations to energize the 
entire Naval Research and Development Enterprise to develop 
solutions for demonstration and evaluation.
    The reasons for NRL's success in providing science at the 
cutting edge through patents and publications and delivering 
value to the fleet and Nation through technology development 
and transitions depends on two fundamental imperatives: a high-
quality workforce and satisfactory facilities. These are our 
two main challenges today.
    NRL's most serious challenge is the need to remodernize our 
aging infrastructure. NRL facilities and laboratories are 
experiencing excessive infrastructure failures. While this is 
to be expected given the average age of the buildings at NRL's 
main campus is 59 years, it is further compounded by inadequate 
investment in new facilities and major repairs of existing 
facilities.
    NRL continues to work with Navy and the Department of 
Defense to address these issues, as it is critical that 
facilities be improved so we can attract and retain qualified 
personnel to work at NRL and deliver state-of-the-art research 
and technology solutions in facilities adequately suited not 
only for our current requirements but our future requirements.
    The second challenge, which we have done, I think, very 
well with the help of this subcommittee, is in workforce. We 
have a world-class workforce of about 1,600 scientists and 
engineers, with more than 870 of them having Ph.D. degrees. 
This high-quality workforce is the biggest reason for NRL's 
sustained success.
    But we must constantly renew this workforce. We use three 
primary vehicles authorized by Congress: the Naval Innovative 
Science and Engineering Program, part of section 219; the 
Laboratory Demonstration Program; and direct hire authority.
    Section 219 is primarily used in workforce development, 
where we have established the Karles Fellowship Program, which 
provides funding to new hires within a year of their graduation 
at any degree level with a grade-point average of 3.5. The 
fellowship provides for 2 years to conduct their own proposed 
research, and we typically fund 25 to 30 of these new fellows 
each year.
    The Laboratory Demonstration Program began in 1999, and I 
will say it is working very well, and high satisfaction from 
the workforce. We are also working with DOD's Laboratory 
Quality Enhancement Program to achieve other authorities that 
have been granted.
    And, finally, direct hire authority has, since its 
beginning, enabled NRL to hire almost 500 people in the science 
and engineering disciplines.
    I invite each of you to visit the Naval Research 
Laboratory, located a short drive from the Capitol. Thank you 
for your time today, your interest in NRL's work, your concern 
for defense science and technology, and support of the DOD 
laboratories and their missions. I look forward to answering 
any questions you have.
    Thank you.
    [The prepared statement of Dr. Franchi can be found in the 
Appendix on page 83.]
    Mr. Wilson. Thank you, Dr. Franchi.
    We now proceed to Dr. Perconti.

   STATEMENT OF DR. PHILIP PERCONTI, ACTING DIRECTOR, UNITED 
                STATES ARMY RESEARCH LABORATORY

    Dr. Perconti. Good afternoon, Chairman Wilson, Ranking 
Member Langevin, distinguished members of the subcommittee, and 
Congressman Turner. Thank you for inviting me to speak about 
Army science and technology in support of military operations. 
I am truly honored to be here and to represent my colleagues.
    Army Chief of Staff General Mark Milley has made readiness 
the Army's top priority. As the world's preeminent ground 
combat force, the Army's definition of readiness must include 
meeting today's urgent operational needs while ensuring 
decisive overmatch for the future force.
    As the Army's corporate research lab, ARL performs 
foundational research to discover, innovate, and transition 
technological developments geared toward acting on 
opportunities in power projection, information, lethality and 
protection, and soldier performance.
    ARL is a part of the Research, Development, and Engineering 
Command [RDECOM], the Army's lead for technology integration 
and the Army's enabling command in the development and delivery 
of unprecedented capabilities for the warfighter.
    The RDECOM's strategy for understanding emerging threats 
and the operational requirements that next-generation systems 
will face are shaped by the strategic guidance from the Office 
of the Secretary of Defense [OSD]; the technical and 
programmatic oversight of the Office of the Assistant Secretary 
of the Army for Acquisition, Logistics, and Technology; the 
Army Materiel Command; and various members of the Army 
requirements and acquisition communities.
    The uncertainty and complexity of future warfare 
necessitate innovation across a broad range of science and 
technology, which requires a research culture that is agile and 
effective, with an emphasis on collaboration that enables the 
continuous flow of people and ideas between government, 
academia, and the private sector.
    ARL is piloting a new business model to create an S&T 
ecosystem emphasizing mutual reliance and interdependent, 
collaborative research as a critical element of national 
security. This new business model, which we call ``Open 
Campus,'' focuses on three major initiatives: modern workforce 
management and policies, shared facilities with our partners, 
and fostering an entrepreneurial and innovative culture.
    Through the Open Campus, ARL scientists and engineers work 
side by side with colleagues from academia, government, and 
industry at ARL and our partner facilities. Over the last year 
alone, the number of Open Campus agreements with academia and 
industry has more than doubled, from 60 to over 180, with 170 
more in negotiation. These agreements have leveraged over $23 
million from our Army partners.
    Early in 2016, we opened ARL West in Playa Vista, 
California. As part of the Open Campus initiative, ARL is 
hiring scientists and engineers on the West Coast in order to 
gain access to subject-matter experts, technical centers, and 
universities not well represented east of the Mississippi. By 
the end of this year, ARL will have similar hubs established in 
Chicago and in Austin, Texas.
    RDECOM enables readiness for today's Army and is now 
developing capabilities for the Army of the deep future. RDECOM 
scientists and engineers were intimately involved with 
developing concepts for the DOD's third offset strategy, as 
leading members of the two long-range research and development 
planning studies. The third offset strategy places major 
emphasis on technologies incorporating unprecedented levels of 
automation and integration, and ARL is concentrating on 
research areas that are essential to enabling this third 
offset.
    ARL has greatly benefited from the authorities this 
committee has worked so intensely to provide. In particular, 
section 219 authority gives ARL the ability to quickly plan and 
execute leading-edge research in support of strategic land 
power dominance. 219 authority for facilities revitalization 
enables ARL to maintain world-class laboratories.
    This authority, when combined with the direct hire 
authority, gives ARL the ability to attract, train, and then 
retain the best workforce our country has to offer, permitting 
us to provide competitive starting salaries and benefits on par 
with universities and most of the private sector. So, on behalf 
of my nearly 3,000 colleagues at the laboratory, thank you for 
these vital efforts.
    Within fiscal constraints, the Army is investing in 
modernization while rebuilding readiness and producing a more 
capable, leaner, and globally responsive Army. We will continue 
working with our partners to rely on our S&T to develop the 
technologies that support the Army's priorities. We will focus 
S&T investment priorities to provide the innovative 
technologies that close capability gaps, address emerging 
threats, reduce acquisition and sustainment costs, and change 
the nature of the fight.
    There are many opportunities to take advantage of, and 
there is more hard work ahead, but I believe ARL is winning the 
innovation challenge placed before us. But we need your 
continued support as we continue to evolve as the Nation's 
premier lab for land forces.
    Thank you. And, along with my colleagues, I would like to 
extend an invitation to you to visit ARL, which is just up the 
beltway. Thank you very much.
    [The prepared statement of Dr. Perconti can be found in the 
Appendix on page 101.]
    Mr. Wilson. Thank you, Dr. Perconti.
    And thank each of you. This is remarkable; each of you were 
within the 5-minute rule. And now Kevin Gates is going to make 
sure that Members of Congress stay within the 5-minute rule, 
beginning with me. And so we will begin immediately.
    And for each of you, could you name one problem or 
impediment that you see keeping the labs from being more 
effective at supporting the science and engineering mission of 
the Department?
    Beginning with General McMurry.
    General McMurry. I think that our biggest impediment, when 
we talk to our customers, has actually been our ability to put 
things on contract in a timely manner. That feedback came back 
resoundingly from internal customers and external.
    We have taken steps to bring an external team in to look at 
our processes and figure out what we have to do to make that 
work. And we have begun that process of really trying to 
capture the end-to-end, kind of, if you will, engineering or 
industrial process of getting things on contract.
    That said, things like Direct to Phase II for SBIR [Small 
Business Innovative Research] and those authorities that we 
have to allow us to bring small-business contracts in place 
quickly have been very useful, but the one biggest complaint 
from customers has been our ability to put things on contract 
and retaining contracting officers and keeping people.
    It is more than a problem of just contracting officers. 
They are key, but we also have to find a kind of a survivalist 
level of training for acquisition. Because it doesn't matter 
that you are a lab; you are really focused on trying to make 
the same kind of quality decisions and preparations to put 
something on contract.
    Our researchers need to be competent at that, but we really 
need them to be better at--you know, to be researchers. So we 
need to get them to a level of competence to support that 
process well in a low-overhead manner. And so we are working 
that through a multiple set of programs.
    Mr. Wilson. And, General, if there is any legislative 
initiative that we need to follow up--because we have 
constituents come to us frequently with extraordinary 
innovation that would be helpful to small businesses, and 
however we can expedite them working with you, please let us 
know.
    General McMurry. We will do that.
    Mr. Wilson. Doctor.
    Dr. Holland. Mr. Chairman, I would say that you have heard 
an allusion to the issues of facilities, and modernizing our 
facilities, I would say, is a major issue for us. The ability 
to fund those, given the extraordinary priorities that we have 
for readiness elsewhere within the services and across the 
Department of Defense, the relative priority that science and 
technology would have against those, is a major, major issue 
for us.
    The Department has extraordinary issues associated with 
readiness and modernization of its installations in and of 
itself. So we have not been able to, thus far, crack the nut, 
if you will, sir, on issues of military construction, for major 
military construction. We have been successful, in my 
organization, getting some unspecified minor MILCON activities 
thus far.
    And that does put the importance of the opportunity to 
possibly aggregate 219 funding back in the game as a major 
source of possible funding for modernizing and recapitalizing 
facilities.
    Mr. Wilson. And we want to back you up too.
    Dr. Franchi.
    Dr. Franchi. Yes. First, I would like to add to Dr. 
Holland's comments about facilities and ways to be able to do 
more both the minor and major construction at our facilities.
    As another example, as NRL works under the Working Capital 
Fund, that means we are a coin-operated operation, 100 percent 
customer-funded. And while I think we do world-class science 
and technology and engineering and we have a very dedicated 
workforce to that, there is a lot of frustration in being able 
to do the business operations, not from the competency of the 
people, but it is very difficult to retain contracting 
officers, supply officers, accountants, budget people. And that 
really slows the process down.
    And I think General McMurry alluded to that in one sense, 
but that is also part of our difficulties, as an example.
    Thank you, sir.
    Mr. Wilson. And we appreciate your acting leadership on 
that too.
    Dr. Perconti.
    Dr. Perconti. Yes, sir. So I think my colleagues have 
really hit on something that we all experience, and that is 
this frustration with speed and agility in the system.
    When you think about hiring, we have lots of authorities 
from DHA, direct hire authority, but now we get to hire people 
into the system only to be caught by things like security, 
delays for security processing, delays for hiring through the 
human resources, things of that nature, which causes you to 
lose, you know, very, very high-quality candidates oftentimes.
    So I think, across the board, what you are seeing is, if we 
could streamline processes along a number of different 
opportunities, that would be very, very helpful.
    Mr. Wilson. We look forward to working with you on that. 
Thank you very much.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Again, thank you to all of our witnesses for your testimony 
and for the work that you are doing.
    I have several questions, but let me get right into it. For 
all of our witnesses, please describe how warfighting needs and 
future requirements have driven investments and priorities. 
And, in particular, how are our lab enterprises closely 
connected with the customer?
    Dr. Holland. Sir, I would say that the defense labs are 
remarkably connected to their customers. I will use my 
organization as an example. We meet routinely, perhaps monthly, 
quarterly, annually, with a variety of different customers of 
different echelons to understand what their requirements are, 
even going to the point of placing people directly in line with 
customers to understand their requirements very closely.
    We attempt very strongly to balance the short-term 
requirements that they will bring to us with the long-term 
requirements of science and technology to be sure that we are 
ahead of the requirements gristmill, if you will, sir, so that 
we are not working on today's problems alone all the time. 
There is a strong connectivity inside the Army for long-range 
assessment planning within the Assistant Secretary of the Army 
for Acquisition, Logistics, and Technology, as well as the 
Long-Range Research and Development Planning process, LRRDP, 
that is ongoing at present at the OSD level.
    So there are multiple levels of planning. We work our plans 
each year against each of those requirements, working to align 
ourselves with those annually.
    Gentlemen.
    Mr. Langevin. General, you are next.
    General McMurry. I think we are aligned very carefully 
through strategic planning documents all the way down. We have 
also maintain an outreach process with our major commands 
[MAJCOMs] where we are talking to them through acquisition 
sustainment reviews, also advanced technology councils.
    And then we link almost all of our projects to the core 
functions support plans that those MAJCOMs put out and the gaps 
that are identified in those. Beyond that, it is joint needs 
and urgent needs that we are really heavily focused on in the 
near term.
    Mr. Langevin. Thank you.
    Dr. Franchi.
    Dr. Franchi. Yes, for our science and technology, our basic 
research, early technology development, we are well-aligned 
with the Naval Science and Technology Strategy, and that 
derives from higher level strategies. We have divisions that 
represent over 15 different disciplines, and that means that we 
are working on problems that are part of and will be important 
to the third offset strategy, just as we have done in the past.
    What the challenge is for us is to see where are those 
areas where we have sufficient expertise, sufficient people 
power to do it, and emphasize those areas more, such as in 
cybersecurity expertise, synthetic biology, people who know 
about autonomy and cognition and autonomous and manned 
interactions and things of that nature.
    So I think we are well-positioned to address that in the 
future.
    Mr. Langevin. Okay. Thank you.
    Dr. Perconti. Yes, sir. So we work very, very closely with 
the Army's Training and Doctrine Command [TRADOC] to look at 
future requirements together, both near-term and far-term. And 
much of what we do for the command is to really understand what 
the Army future warfighting challenges are and how we can bring 
technology to bear to support those challenges.
    We are also very much involved with TRADOC's new Big 6+1, 
as they call them, the new capabilities that have come out of 
the Army Operating Concept Framework. ARL and the Research and 
Development Engineering Command has been a very, very important 
player in developing the technologies that will go into those 
capabilities.
    So it is a very, very tight relationship. We very much love 
to have TRADOC soldiers in our organizations to work with us 
side by side to really teach our scientists and engineers about 
what warfighting means and what capabilities mean.
    Thank you.
    Mr. Langevin. Thank you.
    And for all of you very quickly, I think collaboration is 
very important in understanding what other capabilities are out 
there, what is commercial, off-the-shelf technology that you 
can leverage.
    What is your respective services' current conference 
attendance policy? And, more specifically, who is the final 
approval authority? How have the last few years of limitations 
on conference attendance impacted the workforce, the lab, and, 
ultimately, innovation?
    Dr. Franchi. Yes, sir. Right now, conference travel still 
requires approval by the Secretary of the Navy's office.
    We have worked to streamline the process in the sense of 
shortening the lead time involved. We have expanded the 
qualifications, if you will, for conference attendance from 
just being presenting a paper at a conference to presenting 
posters, being on committees, for technology managers being 
able to go and see what the state of the art is.
    And all of that has been successful, and we have had a very 
high approval rate from the Secretary of the Navy's office.
    What it requires is--still requires a fair amount of 
paperwork to be submitted, and that is probably the one 
frustration that our scientists and engineers have. But we are 
able to go to conferences. That number of people is growing 
again. And so just deleting some of the additional paperwork 
would be most helpful, from the Navy's point of view, or at 
least my personal opinion, sir.
    Mr. Langevin. My time has expired, but if each of you could 
respond to that in writing, I would appreciate it. I know the 
vote has been called.
    [The information referred to can be found in the Appendix 
beginning on page 115.]
    Mr. Langevin. I yield back.
    Mr. Wilson. Thank you, Mr. Langevin.
    And we have had votes called. We will proceed for 
Congressman Lamborn of Colorado, and then we would recess, with 
the goal of coming back around 3:20.
    Congressman Lamborn.
    Mr. Lamborn. Mr. Chairman, I am going to yield the balance 
of my time to Representative Turner, but I do have one quick 
question for Dr. Holland.
    Which of your four locations does the tunnel research?
    Dr. Holland. Vicksburg, Mississippi, sir.
    Mr. Lamborn. Okay. I would like to come see that one of 
these days. Thank you.
    Dr. Holland. Very good.
    Mr. Turner. Thank you, Mr. Lamborn. This is a just-in-the-
nick-of-time delegation of time. Thank you.
    General McMurry, you and Dr. Holland have both given very 
impressive commercials, if you will, for the importance of the 
219 provision that allows you to use up to 3 percent of your 
laboratory's budget toward revitalization and recapitalizing 
facilities infrastructure.
    Dr. Holland, you even state that you have not had a project 
funded with MILCON in recent memory, which I think gives us the 
stress of the need for looking for investment in our 
laboratories.
    General, you talked about the current opportunities of 
where you are trying to advance knowledge being in autonomy, 
UAS [unmanned aerial systems], hypersonics, directed energy, 
nanotechnology--all areas that it would seem would require both 
investment in labs and investment in technologies to advance 
that research.
    So my question to the panel is: We have, really, two 
aspects of this--one, obviously, to continue and strengthen the 
authorities that you have in 219, which has given you some 
flexibility to direct funds to these types of investments. But, 
secondly, how can we increase the competitiveness or your 
success rate in the MILCON process?
    And if you would, please, give us your thoughts on ways 
that the MILCON process perhaps has criteria or a process that 
does not give you an advantage, that disadvantages you, and 
ways in which we might be able to improve it, and your 
additional thoughts on 219.
    If General McMurry and Dr. Holland could respond on that.
    General McMurry. Congressman Turner, good seeing you again.
    I would say that--let's start with the 219. The project 
limit increase would be significant capability. I believe that 
moves from $4 million to $6 million. That would change what we 
can do there. Otherwise, 219 is the--I mean, that is the crowd-
pleaser within the lab. Everybody is very happy with the 
capabilities that that brings.
    With respect to MILCON, we have had some success. We had a 
project at Kirtland on our space vehicles lab that has been 
underway from last year. And we are--well, we have a submission 
that should happen in 2017, all things being equal, down at 
Eglin for a munitions, advanced munitions, capability.
    To improve our capability, it appears that the closer you 
are to the flight line and the more you are to hazard response, 
the better chance you have. What I have been trying to explain 
to people is that, for the labs, the facilities are our 
runways. You know, they are the things that allow us to do our 
mission. So I think we are trying to educate ourselves to 
better explain how the facilities impact mission.
    And the reason I didn't highlight that as the number-one 
issue is because, currently, our rating of what our facilities 
are capable of doing is pretty--it is okay. We can get the 
mission done; we have support issues. But as we look down the 
way, that is when we start to see them tail off in capability 
and the need to upgrade them. 219 helps alleviate that a lot. 
MILCON will help more.
    Dr. Holland. Certainly, the opportunity to implement the 
process of aggregating and, if you will, rolling over 219 
funding to be able to bring funding from certain years forward, 
to be able to fund larger projects, would help this process. It 
would provide for an additional funding source. The actual 
legislation does exist. Our implementation process has not yet 
come to fruition for us.
    As for the actual MILCON process, I would say that the 
process as it exists today, for the sake of the Department, is 
not particularly flawed. There are enormous sets of issues in 
the Department that require aspects of military construction.
    Rather, if we are going to be able to make inroads for, in 
the case of Army--and I would not propose to speak for the 
Navy, but in case of the Navy's issues, we would be in a 
situation where we would almost have to have a separate set of 
criteria or funding opportunity that would be specific to the 
laboratories to be able to cause that to happen.
    The Air Force has actually been somewhat more successful 
than I have been able to be, thus far, for funding MILCON 
projects.
    Mr. Turner. Thank you both.
    Mr. Wilson. Thank you very much.
    And we are in recess.
    [Recess.]
    Mr. Wilson. Ladies and gentlemen, we will call the 
subcommittee back to order. And my other colleagues, I am 
confident, are racing across Capitol Hill as we speak.
    And as we are awaiting others to proceed, a question for 
each of you that would be important: Could the labs play a 
bigger role in training future workforces for emerging 
technologies like cyber, autonomy, or quantum technologies?
    General.
    General McMurry. I think that we can contribute to a 
training environment; I don't know that we are the best 
training ground. I think that there is no doubt that we can 
contribute to doing that. I do think that, as we move into 
those new technologies, we will likely draw on lab expertise to 
figure out how to set up education and training and build that 
expertise. That is more across the force, but that is kind of 
where I come down on that, sir.
    Mr. Wilson. And Doctor.
    Dr. Holland. Mr. Chairman, I believe that if we could set 
the right conditions, I believe the answer is very much ``yes'' 
to that.
    Within the work that we are able to do within the science, 
technology, engineering, and mathematics communities, 
particularly for K through 12 activities and even within the 
college realm, if we were able to continue to get some funding 
for these activities to work with younger students to get them 
engaged in these efforts, to hold summertime activities with 
them to introduce them to the types of opportunities and 
facilities that we have, many of our people are remarkably 
passionate about having the chance to share these types of 
opportunities. And so, at that level, I think we could be 
extremely successful.
    Mr. Wilson. And you are probably already doing this, but I 
am really grateful the Savannah River National Laboratory is in 
the district I represent. And they have internships and 
programs with the local technical college to provide 
opportunities for shadowing--and I am sure you all probably 
already do that, but I--and then promoting STEM programs, as 
you mentioned, at every level.
    So thank you very much.
    And Dr. Franchi.
    Dr. Franchi. Yes, at NRL, we have several programs. We have 
the Science and Engineering Apprenticeship Program for 10 weeks 
in the summer. A very diverse community comes to that. We have 
the Naval Research and Engineering Internship Program, which is 
sponsored by the Office of Naval Research--similar. We engage 
with high schools in the area very much to encourage regular 
students coming in.
    I think two things. I think one is for management to 
encourage more of our workforce to be mentors, because it does 
take time. And, secondly, to perhaps have a source of funding 
for that mentorship, since we are working for customers on 
reimbursable orders, and I think a lot of our scientists and 
engineers give more than their--way more than their 40 hours as 
it is. And it is not that they don't want to do it, but they 
feel sometimes it is difficult to trade that off over what our 
customer is working for.
    Mr. Wilson. Thank you.
    And Dr. Perconti.
    Dr. Perconti. Yes, sir. So it is absolutely vital for us to 
bring students in at the earliest age, K through 12 in 
particular. If you can hook them when they are young, then they 
want to move into S&T as a profession. So we work very hard to 
make sure that we have programs available for--STEM programs 
available for K through 12.
    The Army has a wonderful program called eCYBERMISSION that 
allows students to compete in computer sciences and cyber-
related kinds of activities. So, very, very fortunate for us to 
have programs like that to continue to train the workforce.
    Mr. Wilson. And I am delighted to hear about the 
eCYBERMISSION. There is no question that the younger the person 
is introduced to these issues, the better and then the more 
proficient as they grow older. So I wish you well.
    And then a final question from me, and you have all touched 
on it, and it is regarding the sustainment and repair of 
existing infrastructure. And I am concerned to hear the age of 
59, as to the age of the buildings. What more can we do to help 
each of you address this?
    And this time, we will reverse this way, with Dr. Perconti 
going first.
    Dr. Perconti. Well, sir, SRM [sustainment, restoration, 
modernization] is a big problem for us because of the 
reductions in the Army SRM budgets in general. I think that one 
thing that people need to do is recognize the difference 
between services or, say, laboratory operations versus the 
difference in services that are provided for generalized 
offices and the things like that. It is a very complicated 
space that needs lots of planning and lots of maintenance and 
requires sustained investment to keep those facilities 
operating in a manner that is proficient for all of us.
    So I think that is a recognition that those services need 
to be increased, or perhaps we can then use other financial 
resources to perhaps use--if it is a mission-related problem, 
perhaps to use some of our RDT&E [research, development, test 
and evaluation] mission funds to actually take care of some of 
those problems.
    Mr. Wilson. And Dr. Franchi.
    Dr. Franchi. Yes. First of all, regarding SRM, we collect 
SRM in our overhead, I think, sufficient to do a lot of our 
maintenance and some modernization. It would very much help if 
we could do that with minor construction authority levels 
raised. I understand that is under consideration. As Dr. 
Holland said, being able to accumulate funding for facilities 
over years and then use it, that would be very helpful.
    And we are working very seriously in the Department of the 
Navy to look at ways to put more attention and perhaps funding 
into the military construction process. NRL in the last 15 
years has been, I guess, fortunate, because that 59 years has 
been decreased by two very significant military construction 
projects--one, an Institute for Nanoscience, which has really 
put us on the leading edge of nanoscience and quantum. That was 
about 15 years ago. And 4 years ago, we opened the Laboratory 
for Autonomous Systems Research, which gives us facilities that 
simulate, emulate all of the environments that our 
warfighters--Navy, Marine Corps, compatriots in the Army and 
the Air Force--could take advantage of.
    So it is really continuing down that road as we move into 
these emerging areas where we have to put more emphasis would 
really be helpful.
    Mr. Wilson. Thank you.
    And Dr. Holland.
    Dr. Holland. Sir, just to reiterate, the opportunity to 
have a greater understanding of the total cost of laboratory 
space and what it actually costs to maintain that versus a 
standard barracks or a standard office space would be a very 
helpful piece of information to understand.
    Secondly, anything that is done that increases our 
opportunity to modernize will very much decrease the cost of 
maintaining these extremely old facilities that we have. So, 
for example, even though I have not given a number, inside 
ERDC, our average building is over 41 years old. And that 
includes the construction of three new facilities in the last 5 
years that we have been able to build not off MILCON but off of 
other resources available through the Corps of Engineers.
    Mr. Wilson. Thank you.
    And we conclude with General McMurry.
    General McMurry. First, Mr. Chairman, I would say that on 
the previous question regarding the training, I think the STEM 
aspects I wholeheartedly support, and I probably misinterpreted 
your question slightly.
    As we go forward on this, I really think the ability to do 
projects outside of MILCON is huge. I think anything that would 
raise the level of--allow us to use 219, R&D, anything. The 
deferred maintenance budget within the Air Force is a big deal. 
I mean, we have really squeezed facilities in order to deal 
with the ongoing fight and modernization. So I think anything 
that gives us a little flexibility is fine.
    We are not the only ones feeling the squeeze on facilities 
and maintenance. And we know that the resources to do just 
routine maintenance are very stretched.
    So I will leave it at that. I think the others have talked 
very eloquently about it.
    Mr. Wilson. Well, thank each of you for your response.
    And we now will be concluding with Congressman Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    If I could go back to when I was asking about transition of 
technologies to the warfighter, can you describe examples of 
successes in rapidly delivering game-changing technologies or 
capabilities? For example, a capability to protect against 
improvised explosive devices. What enabled you to ultimately 
deliver these game-changing technologies? Was it things like 
funding, for example, or authorities? What precludes 
transitioning such technology into systems or platforms on a 
more routine and rapid basis?
    General McMurry. Well, sir, I would say that the thing that 
enables us to solve that is actually putting the focus on it. 
That is generally the first thing. We resource it, we put it 
into--for us, we use the Center for Rapid Innovation, and they 
tear that problem apart and look at it as what is the real 
problem, not what is your preferred solution. I think that is a 
key step in how we deal with it. It is really back to that 
strategy-based look, but what are we really trying to solve.
    Examples that we have is providing ISR [intelligence, 
surveillance, and reconnaissance] assets--that is of Silver 
Fang--or the LEAP [Long Endurance Air Platform] aircraft that 
is flying over there now are pretty good examples of things 
that we have been able to put out. And we end up providing 
capabilities that meet the need as opposed to capabilities that 
meet the expected solution. And when we do that, we tend to do 
it at a lower cost and a shorter rate.
    The thing that prevents transition, it is hard to say, but 
I think it is really just getting the agreement that we are 
going to transition and how we are going to bring that into the 
operational fold and which service will pick that bill up and 
when. Because, usually, the bills aren't that big, but 
everybody is so tight on money, just trying to figure out how 
to plan for that and a timeline is a challenge. And part of 
what I am trying to do is get that agreement up front.
    Mr. Langevin. Anybody else want to comment on that?
    Dr. Holland. Yes, sir. The funding aspect of it I think 
could perhaps be best shown by the extreme emphasis that we put 
on counter-IED issues through the Joint IED Defeat Organization 
during its existence. Because we had a very dedicated pot of 
money associated with that and an extraordinary need in 
theater, we were able to, across the Department, come together 
to bring a variety of technologies together very quickly 
compared to what we might refer to as normal means, many times 
bringing very basic research into application in as little as 
24 months.
    Admittedly, in doing that, we were also identifying levels 
of risk that we were taking that were levels of risk that are 
not normal for a normal program of record. But the requirement, 
that joint urgent need that we had, mandated that we take those 
risks at that time. And we were able to field a number of 
capabilities that we brought to theater that met a requirement 
for the short term that we had in theater, particularly in 
Afghanistan.
    Now, transitioning those over the long term then falls back 
to the process of working within our program of record to 
ensure that we are able to do that. And that goes back to the 
process, the tried-and-true process, of working that through 
the system to achieve that transition within those programs. 
But we are fully capable of developing that integrated 
capability when the opportunity arises.
    Mr. Langevin. And how do you coordinate to reduce our 
redundant investments amongst the enterprise, as well as to 
leverage lessons learned and investments made?
    Do either of the other two witnesses want to comment?
    Dr. Franchi. Yes, sir. I can add a few things here.
    I think it is at the bench level, principally, when we have 
our scientists and engineers across the DOD Laboratory 
Enterprise engaging with industry, engaging with academics at 
conferences, meetings, other venues. That is where we learn 
what the capabilities are.
    And then it is incumbent on them and their managers to say, 
okay, are we doing the same type of work? And, if so, if it is 
complementary or even duplicative in the sense of taking a 
different approach, that is good, because that is how we learn. 
And so I think that is one way to reduce the concern about 
redundancy.
    I would also like to comment on your first question, if I 
may, Congressman.
    Mr. Langevin. Sure.
    Dr. Franchi. You asked what enables, sort of, rapid 
responses to capabilities. I think it is the sustained 
investment over many years of science and technology at your 
defense laboratories. Because we often have the technology on 
the shelf, but not until there is an urgent need for it does it 
come forward. And it is either a technology we have or a 
technology that we can adapt in a reasonable amount of time to 
meet a need.
    And so, in that sense, it is transitioning to today's 
warfighting needs, the urgent needs. But I think processes that 
would allow us to look further into the future and transition 
warfighting capabilities from our science and technology that 
may not be as urgent today but might be in 5 or 10 years.
    Dr. Perconti. Sir, if I may add, I think that the 
Department has the communities of interest, which is run by 
ASD(R&E) [Assistant Secretary of Defense for Research and 
Engineering], where the three services come together to really 
look at our programs across a number of disciplines to ensure 
that we are aligned, to ensure that redundancies in those 
programs are reduced or eliminated, and to ensure that we are 
leveraging the resources to the best of abilities across our 
program.
    This has been very, very effective in bringing the three 
services together to make sure--everyone has slightly different 
requirements, but many times, particularly at the component 
level, those technologies are leveraged.
    Mr. Langevin. Very good.
    Well, thank you very much. With that, I will yield back the 
balance of my time. I appreciate you all being here and the 
work that you are doing.
    Mr. Wilson. Thank you, Mr. Langevin.
    I would like to thank Kevin Gates again for his leadership 
on the committee. We have a terrific professional staff that 
are available to you. And, each of you, thank you for your 
service on behalf of our country.
    We are now adjourned.
    [Whereupon, at 4:00 p.m., the subcommittee was adjourned.]

      
=======================================================================

                            A P P E N D I X

                           September 28, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 28, 2016

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 28, 2016

=======================================================================

      

            RESPONSES TO QUESTIONS SUBMITTED BY MR. LANGEVIN

    General McMurry. AFRL conference attendance is now delegated to 
supervisory level approval. June 2016 Guidance empowers leadership to 
make the best decision at the optimum levels for employees and members 
to attend science and technology conferences. AFRL has experienced a 
savings of over 700+ man-hours due to not having to complete travel 
packages each time someone wants to attend a conference. Quicker and 
more appropriate approval authority--now at the level in which the 
approver is very aware of the benefits to the organization. In addition 
to the obvious benefit of giving our S&Es a chance to excel at their 
jobs, a significant secondary benefit is the re-establishment of some 
level of trust that our S&Es and their supervisors are able to figure 
out for themselves which conferences they should and can afford to 
attend. This in turn supports the organization's mission and allows for 
professional growth of S&Es. Our S&Es and their immediate supervisors 
can again manage to their budgets and requirements. An additional 
benefit to the government is the S&Es ability to book travel earlier, 
which in some cases allows them to take advantage of lower travel 
costs, leading to cost savings to the government. Attendance by our AF 
SMEs at these S&T conferences is necessary in order to maintain and 
advance the leading/cutting edge of technology to support the AF 
warfighters.
    However, despite the tremendous improvements made to attend Non-DOD 
Hosted conferences, the approval process for DOD-Hosted conferences 
over $100K continues to be burdensome and time-consuming. AF Conference 
Business Rules added that all co-sponsored conferences that have 50% or 
more government speakers be approved by SAF/AA. This policy has no 
dollar amounts, making any interchanges with industry and academia with 
a registration fee and scheduled agenda impossible. The approval 
packages takes months for the many coordination's before it reaches 
SAF/AA. Small and low cost local events sponsored with non-profit 
organizations, industry, and universities should be approved (if at 
all) at the local leadership level based on the value to the local 
community as well as to the local military organizations.   [See page 
13.]
    Dr. Holland. The current Army policy on conference attendance is 
``Army Directive 2016-14 (Army Conference Policy)'' dated 4 May 2016. 
This policy establishes the final approval authority for attending 
conferences hosted by non-Department of Defense organizations (non-DOD 
conferences) based on the estimated total Army expenditures in support 
of the conference.
    This Army policy permits any General Officer or SES in the chain of 
command to approve participation in a non-DOD conference where total 
Army expenditures are less than $100,000 and fewer than 50 personnel 
within his or her purview are attending. This authority cannot be 
delegated further. Non-DOD conference attendance where Army 
expenditures are in excess of $100,000 or more than 50 personnel from a 
single organization are participating must be approved by the Secretary 
of the Army (SA), Chief of Staff of the Army (CSA), or the 
Administrative Assistant to the Secretary of Army (AASA) as 
appropriate. Attendance at non-DOD conferences exceeding $500,000 in 
costs to the Army are generally prohibited, although the SA may grant a 
written waiver.
    The U.S. Army Corps of Engineers (USACE) conference policy 
supplements the Army conference policy and provides further guidance 
impacting Engineer Research and Development Center (ERDC) attendance at 
non-DOD conferences. At this time, the Corps policy is in draft form 
but is the operating policy as directed by USACE HQ 8 August 2016. The 
USACE policy requires me to approve all conference attendance of ERDC 
personnel (SES lab Directors do not have approval authority) and limits 
my approval authority to $50,000 total expenditures and less than 50 
attendees. The USACE Commanding General (CG) must approve conference 
attendance when we exceed $50,000 in total expenditures. The CG must 
also approve any OCONUS conference attendance.
    Prior to the May 2016 update to conference policy, the procedures 
for attending non-DOD conferences were considerably more stringent. For 
example, under the policy dated 8 July 2015, the USACE CG was only 
authorized to approve attendance at non-DOD conferences with costs less 
than $20,000. Requests with higher costs had to be routed to the AASA 
(up to $75,000) or the SA. In addition, previous policies required 
lengthy request packets and record keeping requirements even for events 
with very low costs to the government.
    The limitations on conference attendance over the last few years 
significantly reduced the numbers of scientists and engineers attending 
conferences. The goal of reducing conference expenditures and 
conference participation was accomplished. Unfortunately, those 
restrictions had a significant negative impact on our ability to share 
and learn information from our colleagues in the scientific community.
    The lengthy, convoluted process, effectively limited participation 
of Scientists and Engineers who were invited as speakers or panel 
members. Our scientists were discouraged by the amount of time, 
preparation and paperwork needed to obtain approval to attend a 
conference. As a result, our conference attendance dropped 
dramatically. While our most senior and accomplished members were 
approved to speak at conferences, our new and young scientists and 
engineers had almost no opportunity to hear them or any other top 
people in their field. Non participation left a feeling of uncertainty 
within the Science and Engineering community and our status and 
recognition as subject matter experts and ability to grow innovation 
was jeopardized. Where we once were chairing scientific panels and had 
younger scientists ``waiting in the wings,'' our inability to commit to 
attendance in advance led conference organizers to seek other 
scientists and engineers to fill those panels.
    The Army policy that came out in May simplified the conference 
approval process, even with the additional restrictions of the Corps. 
Our scientists and engineers are now encouraged to participate in more 
conferences and they are eagerly accepting these opportunities. We have 
seen a significant increase in conference attendance requests since the 
release of the May Army guidance and those requests are being approved 
in a much timelier manner. I believe, with time, our scientists and 
engineers will be back to attending those conferences that will keep 
them on the cutting edge of technology and as recognized subject matter 
experts in their fields.   [See page 13.]
    Dr. Franchi. A. Non-DOD conference attendance that cost $100K or 
less requires Department of the Navy/Assistant for Administration 
approval. Requests for conference travel are signed and submitted by 
the Naval Research Laboratory (NRL) Director of Research (DOR) to 
Department of the Navy/Assistant for Administration (DON/AA). Each 
conference travel request submitted to DON/AA for approval by the DOR 
requires: 1) Conference Request Memorandum--A required document by DON/
AA signed by the DOR certifying that the conference attendance/
participation is essential to NRL's mission 2) Conference Attendance 
Request (brief sheet)--Overall conference/travel details with a cost 
analysis (i.e. purpose of conference, value to the organization and how 
it advanced the DON mission, impact if disapproved, cost estimates and 
dates of travel) 3) Agenda--if available, or an abbreviated conference 
agenda. 4) In keeping with SECNAV policies and the ALNAV 046/16 (Ref. 
(a)) to be fiscally responsible, NRL requires that participation at 
conferences be limited to those with an active role. An active role is 
defined as: a. A traditional speaking or responsibility role at a 
conference (ex. Invited speaker, poster presenter, conference 
chairperson, etc.), and/or b. Participants will be attending relevant 
technical/scientific sessions in order to capture cutting edge 
scientific/technical information paid for by others for the benefit of 
the Navy and to more effectively shape the directions of their 
research, and/or c. Participants will be reviewing the research 
presented by other researchers in their field and will be seeking 
qualified peer researchers for potential collaboration as means of 
amplifying the products of the Navy's research investments, and/or d. 
Participants manage large research portfolios and it is imperative that 
the individuals understand the state-of-the-art in the research fields 
for which they are responsible. They can benefit from research 
conducted by others so that they may more effectively direct their 
research programs to the best benefit of the Navy, avoid duplication, 
and identify potential collaborators or highly qualified candidates for 
hire.
    B. Non-DOD conference attendance exceeding $100K requires both 
Secretary of the Navy (SECNAV) pre-approval and approval. The SECNAV 
conference approval process consists of: 1) A conference pre-approval 
data call by DON/AA for preliminary attendance and exhibit costs. This 
is due approximately three quarters before the start date. The exact 
due date is listed in the Monthly Upcoming SECNAV/UNSECNAV Conferences 
List issued by DON/AA. 2) Commands submit formal requests to attend the 
pre-approved conference (90 days in advance of the conference start 
date).
    C. Current DON Conference Guidance: 1) ALNAV 046/16, dated 27 June 
2016 2) DOD Conference Guidance Version 4.0, dated 26 June 2016 3) OMB 
Memo M-12-12 of May 11, 2012, Subj: Promoting Efficient Spending to 
support Agency Operations 4) Conference Management SECNAV website: 
https://portal.secnav.navy.mil/orgs/DUSNM/DONAA/CPEM/SitePages/
DON%20Conferences.aspx
    SECNAV is responsible for conference policy for the DON. DUSN (M) 
is responsible for implementing the policy and will issue operating 
guidance for conference management within the DON.   [See page 13.]
    Dr. Perconti. The Army's most recently published policy on 
conference attendance was put in place May of 2016, permitting the 
first Senior Executive Service supervisor in an employee's chain of 
responsibility to approve conference participation outside of the 
Department of Defense for Army expenditures of less than $100,000 when 
fewer than 50 employees will be attending. When the expenditure exceeds 
the $100,000/50 employee ceiling, it requires the approval of either 
the Secretary of the Army, Chief of Staff of the Army or the 
Administrative Assistant to the Secretary of the Army, as appropriate. 
This new policy has greatly improved RDECOM's overall participation in 
scientific and technical conferences.
    The last few years of limited conference attendance has 
significantly reduced ARL's ability to lead and influence the 
scientific community in support of Army priorities, and has had similar 
impacts on other parts of RDECOM as a whole. Within ARL alone 
conference publications went from a high of 1,497 conference papers 
published in 2012 to a 43 percent decline after restrictions in 2013, 
with 848 papers published. Only 20 percent of these papers were 
presented by ARL staff as a result of the strict conference attendance 
guidelines. Several years of limited conference attendance has kept 
leading experts away from discussions about cutting-edge research that 
came out during that timeframe; it impacted the natural synergy among 
colleagues that boosts scientific discovery and it impacted ARL's 
influence in industries where the laboratory typically leads. The drain 
on innovation is something that we are working hard to overcome using 
the Open Campus Initiatives to foster closer collaborations with 
academia and industry at the earliest stages of research. The most 
recent policy changes have made approvals for conference attendance 
quicker and easier, with more lead time for those participating. This 
has significant impact on Army readiness, both current and future, by 
allowing RDECOM to better drive the national research and development 
agenda to address Army and joint Warfighter needs.   [See page 13.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 28, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. Can you tell us for the past three years what your 
time-to-hire is for each of the various types of direct hire? How does 
that compare in the same timeframe for traditional government hiring 
processes?
    General McMurry. AFRL utilizes the legislated Direct Hire 
authorities for most of our Scientist & Engineering (S&E) hiring, which 
does not require job posting. The Direct Hire authority has enabled 
AFRL managers to hire scientists and engineers in less than 3/4th the 
time of traditional hiring methods. In order to provide a comparison 
between Direct Hire and conventional hiring, we measured the date a 
hiring request arrived in the personnel office to the date of tentative 
offer to a candidate:
    <bullet>  Direct Hire--11 days
    <bullet>  Conventional Hire--44 days
    RPAs--Request for Personnel Actions
    DHA--Direct Hire Authority
    DHA-Adv--Advanced Degree
    DHA-Bach--Bachelor's Degree
    DHA-Vet--Veteran
    EHA--Expedited Hiring Authority
    Others--Conventional Hire

                                      AFRL Direct Hire Timelines (FY14-16)
                                                      FY14
----------------------------------------------------------------------------------------------------------------
                                                          Average # Days from RPA
     Hiring Authority          # of RPAs Submitted         Initiated to Tentative      Average # Days from RPA
                                                                   Offer             Initiated to Effective Date
----------------------------------------------------------------------------------------------------------------
DHA-Adv                     80                          28.9                         65.6
----------------------------------------------------------------------------------------------------------------
EHA                         44                          31.9                         66.7
----------------------------------------------------------------------------------------------------------------
Others                     125                          64.6                         87.2
----------------------------------------------------------------------------------------------------------------



                                                      FY15
----------------------------------------------------------------------------------------------------------------
                                                          Average # Days from RPA
     Hiring Authority          # of RPAs Submitted         Initiated to Tentative      Average # Days from RPA
                                                                   Offer             Initiated to Effective Date
----------------------------------------------------------------------------------------------------------------
DHA-Adv                    114                          20.7                         60.6
----------------------------------------------------------------------------------------------------------------
DHA-Bach                    68                          22.0                         55.8
----------------------------------------------------------------------------------------------------------------
DHA-Vet                      2                          16.0                         60.0
----------------------------------------------------------------------------------------------------------------
EHA                         42                          21.8                         68.0
----------------------------------------------------------------------------------------------------------------
Others                     151                          56.9                         83.8
----------------------------------------------------------------------------------------------------------------



                                                      FY16
----------------------------------------------------------------------------------------------------------------
                                                          Average # Days from RPA
     Hiring Authority          # of RPAs Submitted         Initiated to Tentative      Average # Days from RPA
                                                                   Offer             Initiated to Effective Date
----------------------------------------------------------------------------------------------------------------
DHA-Adv                    111                          15.6                         63.9
----------------------------------------------------------------------------------------------------------------
DHA-Bach                    53                          17.2                         60.9
----------------------------------------------------------------------------------------------------------------
DHA-Vet                      3                          34.2                         63.3
----------------------------------------------------------------------------------------------------------------
EHA                         40                          37.5                         76.1
----------------------------------------------------------------------------------------------------------------
Others                     136                          66.3                         87.4
----------------------------------------------------------------------------------------------------------------


    Mr. Wilson. This committee has sponsored and the Congress has 
passed numerous personnel management authorities for the laboratories. 
The implementation of many of these authorities, such as the direct 
hire for students from the FY15 NDAA, are still undergoing 
administrative review and have not been implemented.
    From your perspective, what is causing such long delays in 
implementation?
    What impact are these long delays having on lab operations?
    The office of the Under Secretary for Personnel and Readiness P&R 
is responsible for implementing these workforce authorities. Do you 
feel like P&R is placing sufficient focus or attention on these 
laboratory workforce issues? What more could or should they be doing?
    General McMurry. We appreciate the work of Congress to provide 
continued improvements in personnel authorities. These authorities 
allow AFRL to be as competitive as possible with industry in attracting 
top scientists and engineers. AFRL is working with OUSD(P&R) to use all 
of these authorities provided us to their full extent. Unfortunately 
there have been very long delays in obtaining many of our legislated 
authorities. The reason appears to be the fact that OUSD(P&R) no longer 
has a dedicated office to manage the alternative personnel systems 
(demonstration projects).. This coupled with significant internal 
review, to include Office of General Counsel review on most actions, 
and conflicting guidance, has hampered timely implementation of these 
authorities.
    The delay in approving the legislated student direct hire authority 
delayed AFRL's plans to establish a robust student hiring plan during 
the CY16 student hiring timeframe. Past STEM student hiring has been 
minimal due to quality of applicants, missing documentation that 
disqualifies qualified applicants, inability to target specific 
schools, etc. associated with the Pathways program. Through our K-12 
STEM Outreach efforts we are establishing an apprenticeship program 
that will place high school students with technical mentors to 
accomplish STEM projects. The Student Direct Hire would provide an 
effective mechanism to continue these students through their college 
careers.
    AFRL had an individual who retired from Google, and was 
instrumental in establishing Google Maps, that wanted to volunteer with 
us. Our current Federal Register Notice (FRN) allowed for retired 
military and civilians to volunteer but not private citizens. The lack 
of approval on a minor modification we requested in November 2016 
resulted in a loss of this valuable, free asset.
    The lack of approval of the AFRL FRN for flexible term appointments 
and temporary promotions has prevented us from using these 
flexibilities. Considering the requested publication of the 
aforementioned AFRL FRN for flexible term appointments and temporary 
promotions was sent to OUSD(P&R) in November 2015, the AFRL minor 
modification to our Voluntary Emeritus Corps authority was sent in 
November 2016 and the FY15 and 16 legislated authorities have yet to be 
approved by OUSD(P&R), I would prefer the system was more responsive. A 
dedicated staff, a definitive determination when a FRN is needed and a 
clear, concise process for approval of demonstration project and 
legislative authorities would be helpful.
    Mr. Wilson. Can you tell us for the past three years what your 
time-to-hire is for each of the various types of direct hire? How does 
that compare in the same timeframe for traditional government hiring 
processes?
    Dr. Holland. For the past three years, the U.S. Army Engineer 
Research and Development Center (ERDC) has been able to use its Direct 
Hire Authorities (DHA) to reduce the time it takes to successfully 
recruit in the Science, Technology, Engineering and Mathematics (STEM) 
fields by over 50 percent. The majority of ERDC's new Direct Hires are 
graduating students in the science and engineering fields, and an 
important factor in the successful recruitment of these students is 
getting a job offer commitment early in the academic year before 
graduation. Therefore, the most telling measure of the positive DHA 
impact is the ``Initiation to Commit'' time, which is a measure of the 
time between the first steps in the recruit action until the recruit 
accepts a tentative job offer (pending their graduation in good 
standing). The average commit times for the last three fiscal years are 
21.3 days for ERDC's DHA actions and 44.6 days for our traditional 
Competitive actions. This critically important 21 day commit time 
compares even more favorably to the U.S. Army Corps of Engineers 
(USACE) average of 62 days and the Army average of 81 days over the 
past three years for Competitive hires. It is clear that the DHA allows 
the ERDC to target and successfully recruit the best and brightest 
candidates available in the very competitive STEM fields.
    Mr. Wilson. This committee has sponsored and the Congress has 
passed numerous personnel management authorities for the laboratories. 
The implementation of many of these authorities, such as the direct 
hire for students from the FY15 NDAA, are still undergoing 
administrative review and have not been implemented.
    From your perspective, what is causing such long delays in 
implementation?
    What impact are these long delays having on lab operations?
    The office of the Under Secretary for Personnel and Readiness P&R 
is responsible for implementing these workforce authorities. Do you 
feel like P&R is placing sufficient focus or attention on these 
laboratory workforce issues? What more could or should they be doing?
    Dr. Holland. Management responsibilities in the Office of the Under 
Secretary of Defense for Personnel and Readiness (P&R) for Alternate 
Personnel Systems, which includes the Laboratory Demonstration Programs 
in the Science and Technology Reinvention Laboratories (STRLs), are not 
assigned to any one office in P&R. Previously, there was one office 
which focused entirely on Alternate Personnel Systems. This was of 
great benefit to the STRLs to expedite the publishing of Federal 
Registers, when needed. The current plan for utilizing personnel 
demonstration authorities, Department of Defense Instruction 1400.37, 
includes specific timelines for review of actions by the Components and 
P&R and is satisfactory to allow Laboratory Directors to utilize the 
authorities. We are encouraged that P&R is now reviewing this plan and 
hopeful of positive results to improve and streamline processes to meet 
Demonstration Project objectives.
    Direct hire for students is a very beneficial authority that will 
allow us to immediately hire students without going through the 
cumbersome, time-consuming, and restrictive national advertising of 
these positions. We have robust outreach programs with local schools in 
four states and Educational Partnership and Cooperative Research and 
Development Agreements with over 80 colleges and universities. The 
ability to directly hire students will afford us the opportunity to 
promote early interest in Science, Technology, Engineering, and 
Mathematics (STEM)-related fields to bring to bear the best talent to 
solve the interdisciplinary problems that we address.
    The NDAA 2016 includes provisions to assist in the reshaping of the 
workforce; specifically, Voluntary Separation Incentive Payments 
(VSIP). Not having this results in our inability to be able to quickly 
eliminate skills that are no longer needed and acquire new technical 
capabilities in response to evolving requirements. We are extremely 
grateful for the support provided by P&R to expand the scope of this 
flexibility to ensure full utilization of these authorities.
    Mr. Wilson. Can you tell us for the past three years what your 
time-to-hire is for each of the various types of direct hire? How does 
that compare in the same timeframe for traditional government hiring 
processes?
    Dr. Franchi. The average time for Direct Hire for Advanced Degrees 
to receive a tentative offer from date of receipt of RPA in the NRL 
Human Resources Office (HRO) is 2 calendar days. To receive a firm 
offer is 15 calendar days from date of receipt of RPA in the NRL HRO.
    The average time for Direct Hire for Bachelors to receive a 
tentative offer from date of receipt of RPA in the NRL HRO is 2 
calendar days. To receive a firm offer is 13 calendar days from date of 
receipt of RPA in the NRL HRO.
    The average time for Direct Hire for Veterans to receive a 
tentative offer from date of receipt of RPA in the NRL HRO is 13 
calendar days. To receive a firm offer is 34 calendar days. The reason 
for delays include waiting for veterans documentation.
    Direct Hire authorities waive the requirement to publish individual 
vacancy announcements, evaluate candidates, and issue certificates of 
eligible candidates; whereas direct hire authority allows managers to 
submit name requests immediately after identification of a qualified 
candidate. NRL HRO reviews selection packages to ensure eligibility 
requirements are met and makes tentative offers within three calendar 
days of receipt of the RPA.
    For traditional delegated examining used to fill NRL positions, it 
takes on average 97 calendar days from date of receipt of RPA in the 
NRL HRO to give a tentative offer and 120 calendar days from date of 
receipt of RPA in the NRL HRO to give a firm offer. The length of time 
is increased because of the time it takes to prepare job analysis, 
advertise the position, evaluate the candidates, issue the certificate 
of eligible candidates, and interview the candidates.
    Competition for high-quality S&T candidates in private industry is 
fierce. Industry is often able to make job offers to candidates on-the-
spot. Under traditional hiring methods, it could take 85 plus days to 
advertise the position, wait for a certificate, and make an offer and 
by then, candidates may have decided to accept a position elsewhere. 
With Direct Hire, NRL is able to give a tentative offer within three 
days of receipt of a hiring action in the Human Resources Office, and a 
firm offer is typically made within 15 calendar days of receipt of the 
hiring action which allows NRL to be more competitive with private 
industry.
    See below for S&T hiring statistics for NRL.

                                        FY 2016 EXTERNAL S&T HIRING STATS
----------------------------------------------------------------------------------------------------------------
                                                                                            *Avg #      **Avg #
  Type of Recruitment    # Less than   # BS Hires   # MS Hires  # Phd Hires    Total #      days to     days to
                              BS                                                Hires     Tent offer  Firm Offer
----------------------------------------------------------------------------------------------------------------
Direct-Hire Authority    N/A          N/A          18           50           68            2           15
 Advanced Degree
----------------------------------------------------------------------------------------------------------------
Direct-Hire Authority    N/A          17            1             1<dagger>  19            2           12
 Bachelor's Degree
----------------------------------------------------------------------------------------------------------------
Direct-Hire Authority    1             0            0            0            1           29           67
 Veteran's
----------------------------------------------------------------------------------------------------------------
Delegated Examining      4             0            0            0            4           97          111
----------------------------------------------------------------------------------------------------------------
<dagger> PhD was in different field than BS/MS (nonqualifying for position)
* Average time from date recruitment action is received in HRO to tentative offer
** Average time from date recruitment action is received in HRO to tentative offer



                                        FY 2015 EXTERNAL S&T HIRING STATS
----------------------------------------------------------------------------------------------------------------
                                                                                            *Avg #      **Avg #
  Type of Recruitment    # Less than   # BS Hires   # MS Hires  # Phd Hires    Total #      days to     days to
                              BS                                                Hires     Tent offer  Firm Offer
----------------------------------------------------------------------------------------------------------------
Direct-Hire Authority    N/A          N/A          16           43           59            2          15
 Advanced Degree
----------------------------------------------------------------------------------------------------------------
Direct-Hire Authority    N/A          28           N/A          N/A          28            2          15
 Bachelor's Degree
----------------------------------------------------------------------------------------------------------------
Direct-Hire Authority    1             0            2            1            4            6          22
 Veteran's
----------------------------------------------------------------------------------------------------------------
Delegated Examining      3             0            0            0            3           72          87
----------------------------------------------------------------------------------------------------------------
* Average time from date recruitment action is received in HRO to tentative offer
** Average time from date recruitment action is received in HRO to tentative offer



                                        FY 2014 EXTERNAL S&T HIRING STATS
----------------------------------------------------------------------------------------------------------------
                                                                                            *Avg #      **Avg #
  Type of Recruitment    # Less than   # BS Hires   # MS Hires  # Phd Hires    Total #      days to     days to
                              BS                                                Hires     Tent offer  Firm Offer
----------------------------------------------------------------------------------------------------------------
Direct-Hire Authority    N/A          N/A          18           41           59             2          15
 Advanced Degree
----------------------------------------------------------------------------------------------------------------
Direct-Hire Authority    N/A          2            N/A          N/A           2             1           10<dagge
 Bachelor's Degree                                                                                     r
----------------------------------------------------------------------------------------------------------------
Direct-Hire Authority    0            4             3            0            7             4           12<dagge
 Veteran's                                                                                             r
----------------------------------------------------------------------------------------------------------------
Delegated Examining      0            4             3            0            4           121         162
----------------------------------------------------------------------------------------------------------------
<dagger> Implemented 8/8/14 at NRL
* Average time from date recruitment action is received in HRO to tentative offer
** Average time from date recruitment action is received in HRO to tentative offer


    Mr. Wilson. This committee has sponsored and the Congress has 
passed numerous personnel management authorities for the laboratories. 
The implementation of many of these authorities, such as the direct 
hire for students from the FY15 NDAA, are still undergoing 
administrative review and have not been implemented.
    From your perspective, what is causing such long delays in 
implementation?
    What impact are these long delays having on lab operations?
    The office of the Under Secretary for Personnel and Readiness P&R 
is responsible for implementing these workforce authorities. Do you 
feel like P&R is placing sufficient focus or attention on these 
laboratory workforce issues? What more could or should they be doing?
    Dr. Franchi. Thank you for granting these authorities in the past. 
Since 2009, NRL has hired 459 scientists and engineers and committed to 
an additional 43 hires this calendar year using Direct Hire for 
Advanced Degrees (405 hired/26 committed), Bachelors (48 hired/16 
committed) and Veterans (6 hired/1 committed). When DOD STRLs received 
the authority for Direct Hire for Advanced Degrees, we were able to use 
the authority within five months of NDAA passage using DOD 
``implementation guidance''. A Federal Register Notice (FRN) was not 
required to begin using this authority.
    When DOD STRLs received authority for Direct Hire for Bachelors and 
Veterans, we were able to use this authority within eight months of 
NDAA passage using a FRN. This FRN was drafted by DOD STRLs and 
together DOD STRLs and the Defense Civilian Personnel Advisory Services 
(DCPAS) finalized the FRN. DOD OGC determined that a FRN was required 
for these new authorities; therefore, the Direct Hire for Advanced 
Degrees was included in this FRN.
    The NDAA FY2015, Section 1105, signed into law December 19, 2014, 
gave DOD Science and Technology Reinvention Laboratories (STRLs) a STEM 
student direct hire authority (DHA). Over the past 23 months, OSD, in 
conjunction with the Laboratory Quality Enhancement Program (LQEP) 
Personnel Subpanel Lead, and Components, have been working towards 
issuing a FRN for this DHA. Currently, OSD is working with the LQEP 
Personnel Subpanel Lead and DCPAS to reconcile language regarding 
probationary periods and removal of student interns. Once a final 
version of the revised language is mutually agreed upon by the STRLs 
and OSD the revised final FRN will be sent to the Component and STRL 
POCs and the FRN will begin formal coordination for approval and 
publication in the Federal Register.
    Without Direct Hire for STEM students, NRL has experienced a 
significant decline in our student programs. In FY12 (the last year we 
were under the Student Career Experience Program (SCEP)/Student 
Temporary Employment Program (STEP)), we hired 171 students, compared 
to this Fiscal Year in which we hired 92 students (a 46% decrease in 
hires). Student participation decreased by 62% (we had 429 STEP/SCEP 
participants in FY12 and 161 Pathways Intern participants in FY16). 
Pathways requires an announcement and the ability to select the 
candidate from a certificate, causing a significant delay between the 
time a hiring manager finds a candidate until the individual may be 
hired, if the candidate is still available and within reach on the 
certificate.
    Unfortunately, I cannot provide insight into the operations in OSD. 
All I would say is that the additional workforce authorities would be 
helpful for us at NRL and we are working closely with DOD and DON 
offices.
    Mr. Wilson. Can you tell us for the past three years what your 
time-to-hire is for each of the various types of direct hire? How does 
that compare in the same timeframe for traditional government hiring 
processes?
    Dr. Perconti. The average time to make a job offer to a candidate 
during these last three years using Direct Hire Authorities is 30 days, 
compared to a historical 150 to 180 day-average using traditional 
hiring mechanisms. The time-to-hire decrease has significantly helped 
us to bring on student interns and post-doctoral candidates who bring 
fresh perspective and ideas to the programs at ARL.
    Mr. Wilson. The Army Research Lab has been advocating an open 
campus concept to try to better bring together commercial and academic 
innovators to work collaboratively with Army scientists.
    How is that effort coming along?
    Do you have the right authority and funding to support academic 
faculty to come to the lab and conduct collaborative research with 
government scientist and engineers?
    For the others, are any of you looking at a similar concept to help 
spur public-private collaborations?
    Dr. Perconti. ARL's Open Campus business model has begun to foster 
a dynamic, cooperative science and technology ecosystem that links 
government assets with the global research community. Collaboration is 
centered on mutual scientific interest and investment by all partners. 
The goal is to lay out the technical program and invite experts in the 
community to interact, create transformative projects and reach shared 
goals. Open Campus started as a pilot program. The concept has since 
morphed into a new business model for Defense science and technology.
    Interest in ARL's Open Campus continues to grow. This is made 
evident by the more than 634 researchers from academia and industry, 
including 53 from 20 countries, who have moved into and out of the 
Laboratory under the umbrella of Open Campus. One hundred ninety-five 
Cooperative Research and Development Agreement projects are active, and 
195 additional projects are in staffing. ARL estimates that 
approximately $40 million of in-kind research has been performed by our 
open campus collaborators.
    The authorities granted through this committee help ARL to 
accelerate innovation by facilitating closer partnerships derived from 
Open Campus initiatives. ARL continues to pursue opportunities for Open 
Campus improvements at Adelphi, Maryland and at the Aberdeen Proving 
Ground (APG). At APG, initial plans are being explored for new Open 
Campus facilities for unclassified high performance computing, and 
facilities for Human Sciences, Sciences for Maneuver, and Materials 
Sciences. These new facilities are needed to establish a research park-
like setting that provides a strong pull for collaborative foundational 
research at an APG location specifically supporting freedom-of-
movement. The Open Campus vision to accelerate Army innovation, 
facilitated by proximity, using collaborative partnerships between 
government, industry and academia will not happen unless MILCON funds 
become available.
    Mr. Wilson. This committee has sponsored and the Congress has 
passed numerous personnel management authorities for the laboratories. 
The implementation of many of these authorities, such as the direct 
hire for students from the FY15 NDAA, are still undergoing 
administrative review and have not been implemented.
    From your perspective, what is causing such long delays in 
implementation?
    What impact are these long delays having on lab operations?
    The office of the Under Secretary for Personnel and Readiness P&R 
is responsible for implementing these workforce authorities. Do you 
feel like P&R is placing sufficient focus or attention on these 
laboratory workforce issues? What more could or should they be doing?
    Dr. Perconti. ARL does not have sufficient insight into the office 
of the Under Secretary for Personnel and Readiness to report for the 
record what challenges might hinder the implementation of personnel 
management authorities for personnel systems such as the laboratory 
demonstration projects in the Science and Technology Reinvention 
Laboratories (STRL).
    However, certain circumstances and choices do impact the 
laboratory's personnel readiness. The first is the lack of dedicated 
P&R staff to manage STRL personnel demonstration projects. This leads 
to a lack of institutional knowledge about the unique flexibilities and 
features permissible under the demonstration projects, which makes it 
difficult to hire technical staff in a competitive job market. There 
are also multiple layers of management oversight involved in staffing 
the implementing guidance.
    Second, the implementation process guidance needs more clarity as 
it concerns the Federal Register Notice requirement. According to USD 
(P&R), Civilian Personnel Policy Office, a Federal Register Notice is 
required in order to implement personnel management authorities granted 
through legislation, rather than a memorandum that delegates authority 
and provides implementing guidance. These two documents are similar on 
the surface, but it may take around two years to implement a Federal 
Register Notice, while the memorandum may take only two months. It is 
unclear why a Federal Register Notice, versus a memorandum of 
instruction/implementation is required to implement legislation. 
Definitive and written guidance on this requirement will aid in the 
implementation of legislation.
    ARL has been also been negatively impacted in relation to student 
hiring. Authorities granted by the FY14 (manage workforce to budget) 
and FY16 (flexible length, renewable term appointing authority and 
other work force shaping authorities) NDAA, would lift existing 
personnel restrictions, and allow ARL to begin hiring a larger portion 
of the federal STEM workforce into flexible-length, renewable, time-
limited appointments. Incorporating the speed and agility that would 
come from fully implementing personnel management authorities for the 
laboratory would improve the ability of the workforce to match its 
technical skill set with changing technological trends, missions, and 
threats, as well as to efficiently manage budget-driven reductions in 
workforce. It would also enhance the innovative capacity of the ARL by 
promoting flow of talent between the federal government and academic 
and industry partners.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. NORCROSS
    Mr. Norcross. Please explain how you separate the ``inherently 
governmental work'' you do in the government labs from work industry 
should do and how this provides for any competition in accordance with 
Better Buying Power?
    General McMurry. AFRL does not award contracts for inherently 
governmental services (IAW FAR 7.503). The degree of government 
involvement and expertise necessary to keep sufficient oversight and 
control of government operations varies by function and situation, 
depending on such factors as delegation of approval authority, 
complexity of operation, geographic dispersion of the activity, 
regulatory authority, and consequence of default. To preclude ceding 
governmental control and authority of Inherently Governmental functions 
to the private sector, AFRL conducts a risk assessment on activities 
proposed to be accomplished by the private sector. This risk assessment 
for the activity considers such factors as a need for informed, 
independent judgment, government oversight and the exercise of 
substantial discretion when applying Federal Government authority. This 
assessment results in a manpower certification which ultimately 
determines the activity as inherently or non-inherently governmental. 
The manpower certification is required, prior to contract award, for 
all activities performed by the private sector. Once the activity has 
been determined to be non-inherently governmental, the activity is 
competitively awarded via a contract. AFRL fully embraces the Better 
Buying Power competition initiatives, specifically in the areas of 
market intelligence, fair opportunity competition on Multiple Award 
Indefinite Delivery Indefinite Quantity contracts and reduction in the 
reliance of sole source bridge contracts. Through these initiatives, 
AFRL achieved a 96% competition rate in FY15.
    Mr. Norcross. Please explain how you separate the ``inherently 
governmental work'' you do in the government labs from work industry 
should do and how this provides for any competition in accordance with 
Better Buying Power?
    Dr. Holland. The Office of Federal Procurement Policy Letter 11-01 
of 2011 defines inherently governmental work and is the guiding policy 
that separates what we do from what Industry should do. The Engineer 
Research and Development Center (ERDC) contracts with the private 
sector and academia to support its Science and Technology (S&T) 
mission, in areas that do not constitute inherently governmental work.
    ERDC has a stringent review processes in place, with government 
management and oversight, of all service contracts, to promote healthy 
competition in line with the Better Buying Power 3.0 program. These 
business processes, in conjunction with its overarching S&T strategy, 
allow ERDC to ensure fiscal responsibility while meeting mission 
requirements today and into the future.
    Mr. Norcross. Please explain how you separate the ``inherently 
governmental work'' you do in the government labs from work industry 
should do and how this provides for any competition in accordance with 
Better Buying Power?
    Dr. Franchi. As the corporate laboratory of the Department of the 
Navy (DON), the U.S. Naval Research Laboratory (NRL) conducts basic 
research, translates the results of this research into technologies, 
and assists in the transfer of these technologies to other DON, 
Department of Defense (DOD), federal, and industrial organizations for 
incorporation into effective operational military systems. The 
successful transition of these technologies supports NRL's corporate 
philosophy that a sustained and well-managed investment in 
multidisciplinary research and development (R&D) leads to continual 
improvements to the nation's defense, helps prevent technological 
surprise by potential adversaries, and can lead to revolutionary and 
world-changing capabilities, such as NRL's pioneering contributions 
that led to sonar, radar, satellites, GPS, and, maybe soon, laser 
weapons and railguns.
    As a government laboratory, NRL is a part of the DOD's internal 
technical capability--the cadre of government S&Es who perform R&D. 
Their hands-on expertise distinguishes them from the much larger 
acquisition workforce, which is the primary focus of the DOD's Better 
Buying Power initiatives.\1\ These S&Es provide authoritative advice to 
the acquisition workforce, which is in turn responsible for managing 
procurement programs. The two communities serve a common purpose, but 
they operate within different environments, with different requirements 
and skills.
---------------------------------------------------------------------------
    \1\  Better Buying Power (BBP) 3.0 reflects the ``commitment to 
continuous improvements in the defense acquisition system. Under the 
overarching theme, Achieving Dominant Capabilities through Technical 
Excellence and Innovation, we are strengthening our efforts in 
innovation and technical excellence while also continuing the 
Department's efforts to improve efficiency and productivity that began 
under BBP 1.0 and 2.0'' [ref: USD (AT&L), ``Better Buying Power Fact 
Sheet'', 2015. http://www.acq.osd.mil/fo/docs/
BBP3.0FactSheetFINAL.PDF].
---------------------------------------------------------------------------
    Specifically, the DOD's laboratories represent a critical and 
unique resource for solving the scientific and engineering problems, 
deficiencies, and needs of the Military Departments. They exist to 
achieve--in cooperation with universities and industry--a level of 
technological leadership that shall enable the DOD to develop, acquire, 
and maintain military capabilities needed for national security. This 
collaboration with industry and academia is productive and has 
resulted, from FY11 to FY15, a cumulative total of 75 new Cooperative 
Research and Development Agreements, 21 new licenses, 513 invention 
disclosures, 546 patents issued, 7,600 publications, 4,193 refereed 
journal articles and 40,857 citations.
    In particular, this degree of collaboration is vital because 
industry will not take on the full range of necessary work because many 
areas hold limited opportunities for profit, and specialized defense 
technologies often have little or no applicability to commercial 
products. In addition, R&D is expensive, the time to achieve success is 
long, the work is often very risky, and the payoff (especially from 
research) is usually not immediate.
    Mr. Norcross. Please explain how you separate the ``inherently 
governmental work'' you do in the government labs from work industry 
should do and how this provides for any competition in accordance with 
Better Buying Power?
    Dr. Perconti. As it applies to the U.S. Army Research Laboratory 
(ARL), the Office of Federal Procurement Policy Letter 11-01 of 2011 
defines inherently governmental work as those items that guide program 
priorities. As it pertains to RDECOM, government officials take a 
leading role in managing, overseeing and performing research in areas 
that are critical to Army mission requirements, e.g. armor, advanced 
energetics, etcetera. Often, ARL leads in technology areas that have 
limited market potential or return-on- investment for the private 
sector. In such areas, the Army must perform in-house research to 
enable new warfighting capabilities and to counter emerging threats. 
ARL has developed a technical strategy influenced by the near-, mid- 
and far-term needs of the Army as outlined in strategic documents such 
as the Army Operating Concept and in the Army Warfighting Challenges. 
Within this S&T strategy, ARL has identified research areas in which it 
will lead, and those which are addressed either by collaborating with 
or following research occurring in industry and academia. Through ARL's 
Open Campus business model, the organization is working even more 
closely with industry and academic partners to leverage resources and 
focus efforts towards Army-specific applications at early stages of 
technology development. ARL offers a variety of collaboration 
mechanisms promoting competition consistent with Better Buying Power 
3.0. By focusing the Army's S&T resources with this strategy, ARL 
ensures fiscal responsibility while shaping the technology investments 
necessary for the future force

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
